OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S OFFICE OF
MIDDLE EAST PROGRAMS
AUDIT REPORT NO. 6-263-09-004-P
MARCH 30, 2009




CAIRO, EGYPT
Office of Inspector General

March 30, 2009

MEMORANDUM

TO:            USAID/Egypt Mission Director, Hilda Arellano

FROM:          Regional Inspector General, Cairo, Lloyd Miller /s/

SUBJECT:       Audit of USAID’s Office of Middle East Programs
               (Report No. 6-263-09-004-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your responses in appendix II.

The report contains two recommendations intended to improve the implementation of USAID’s
Office of Middle East Programs. In response to the draft report, the mission agreed with both
recommendations. A management decision for recommendation no. 1 will be considered to
have been made when the Office of Middle East Programs can more precisely determine its
target date for completion of all actions. We consider that a management decision has been
made and final action has been taken for recommendation no. 2.

Thank you for the cooperation and courtesy extended to the audit team during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

     A Performance Management Plan Needs to Be Developed ....................................... 8

     Operational Plan Performance Indicators Need to Be Revised .................................. 9

Evaluation of Management Comments ....................................................................... 12

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 15

Appendix III – Performance Indicators Reviewed ...................................................... 18
SUMMARY OF RESULTS
The Middle East and North Africa region is diverse in geography, ethnicity, and history,
yet the countries in this region face many common challenges. The region’s economic
gains are not widely distributed across society. In addition, the region has experienced a
dramatic rise in population. Limited public transparency results in a lack of data on
government or public policy. To illustrate, the countries with USAID missions that are
served by USAID’s Office of Middle East Programs rank low in indices of economic
freedom, corruption, and democracy.

•   The Heritage Foundation’s Index of Economic Freedom ranks these countries from
    58 to 125 out of 157 countries ranked. Their average ranking was 108.
•   Transparency International’s Corruptions Perceptions Index ranks these countries
    from 53 to 178 out of 180 countries ranked. Their average ranking was 110.
•   The Economist’s Democracy Index ranks these countries from 85 to 142 out of 167
    countries ranked. Their average ranking was 113.

In June 2005, USAID approved the establishment of a new regional program, USAID’s
Office of Middle East Programs (OMEP). OMEP, headquartered at USAID/Egypt, works
in seven missions (Egypt, Iraq, Jordan, Lebanon, Morocco, West Bank and Gaza, and
Yemen) (page 3). OMEP has focused on two areas: (1) the provision of technical
services to other missions, particularly smaller missions such as Lebanon and Yemen,
as needed, and (2) the oversight of multicountry programming in the Middle East and
North Africa region (page 4). OMEP’s director reports to the USAID/Egypt mission
director, and also works with USAID/Washington on its strategic planning process and
staffing levels (page 3).

The Office of Inspector General conducted this audit as part its fiscal year 2008 audit
plan to determine whether USAID’s Office of Middle East Programs achieved its
intended results, and what the impact of the programs has been (page 4). In regard to
technical assistance support, OMEP achieved its intended results to provide support to
seven missions in the Middle East and North Africa. According to mission directors and
deputy directors in the Middle East, OMEP’s technical assistance was viewed as
responsive, timely, adding value, and technically strong (page 5).

In regard to implementing program activities, although OMEP has not achieved its 2008
intended results, it has made some progress implementing nine regional activities. The
impact of programs funded by OMEP has been limited for several reasons, including
modest funding levels and programming stretched through seven countries and across
three program areas—counterextremism, anticorruption, and water supply and sanitation
(page 5).

Nevertheless, two factors could improve OMEP’s monitoring of regional programs and
more effectively measure progress of its programs.

•   First, OMEP has been operating without a performance management plan. A
    coherent group of performance management plan indicators, both strategically
    defined and approved by management, would help OMEP to measure and monitor
    program achievements and resulting impacts (page 8).


                                                                                        1
•   Second, OMEP’s performance indicators in the fiscal year 2008 operational plan did
    not effectively measure performance. The audit identified that 15 of 19 performance
    indicators did not closely track the results they are intended to measure (page 9).

This report makes two recommendations to improve OMEP’s regional activities (pages 9
and 11).       The mission agreed with the audit report’s recommendations, and
management decision for recommendation no. 1 will be considered to have been made
when OMEP can more precisely determine its target date for completion of all actions.
The Office of Inspector General considers that a management decision has been made
and final action has been taken for recommendation no. 2. An evaluation of
management comments is provided in the Evaluation of Management Comments
section of this report (page 12), and management comments are included in appendix II.




                                                                                     2
BACKGROUND
The Middle East and North Africa region is diverse in geography, ethnicity, and history,
yet the countries in this region face many common challenges in social and economic
development. The region is home to natural wealth, but the economic gains from this
wealth are not widely distributed across society. The Middle East and North Africa
region has experienced a dramatic rise in population that may carry implications for
unemployment and instability. More than half the region’s population is under the age of
24, and more than one in four are unemployed. Limited public transparency in the
region results in a lack of data on government or public policy. To illustrate, the
countries with USAID missions that are serviced by the USAID’s Office of Middle East
Programs rank low in indices 1 of economic freedom, corruption, and democracy.

•   The Heritage Foundation’s Index of Economic Freedom ranks these countries 2 from
    58 to 125 out of the 157 countries ranked (Hong Kong was number 1, and North
    Korea was 157). Their average ranking was 88.
•   Transparency International’s Corruptions Perceptions Index ranks these countries 3
    from 53 to 178 out of the 180 countries ranked (Denmark was number 1, and
    Somalia was 180). Their average ranking was 108.
•   The Economist’s Democracy Index ranks these countries from 85 to 142 out of the
    167 countries ranked (Sweden was number 1, and North Korea was 167). Their
    average ranking was 113.

Establishing a regional presence in the Middle East and North Africa, a region that is at
the core of U.S. strategic interest, was to support the goals of the Department of
State-USAID joint strategy for the Middle East (i.e., to promote peace in the region and
to diminish the underlying causes of terrorism). In June 2005, USAID approved the
establishment of a new regional program, USAID’s Office of Middle East Programs
(OMEP). OMEP, headquartered at USAID/Egypt, works in seven missions (Egypt, Iraq,
Jordan, Lebanon, Morocco, West Bank and Gaza, and Yemen). OMEP’s director
reports to the USAID/Egypt mission director, and also works with USAID/Washington on
its strategic planning process and staffing levels.

In May 2006, OMEP drafted a concept paper in collaboration with the Africa and Near
East (ANE) Bureau on the direction that should appear in OMEP’s first strategic
statement. This strategic statement allowed OMEP to continue its strategic development
process without a strategy or approved strategic objectives—a condition that still exists.
Without USAID’s senior bureau management approval of the strategy document, OMEP
lacked an Agency-wide commitment in accomplishing its objectives and intermediate
results. By August 2006, OMEP had assembled staff, developed regional technical
service assistance capabilities, and launched three activities with $2 million allocated
from the ANE Bureau budget. In August 2007, OMEP also received its first program
funding of $5 million for fiscal year (FY) 2007.



1
  Indices were dated as of 2008.
2
  Index excluded West Bank and Gaza and Iraq because information was not available.
3
  Index excluded West Bank and Gaza because information was not available.


                                                                                        3
In March 2008, USAID’s ANE Bureau was divided into two separate regional bureaus,
the Asia Bureau and Middle East Bureau. USAID aligned OMEP with the Middle East
Bureau, along with the Egypt, Iraq, Jordan, Lebanon, Morocco, West Bank and Gaza,
and Yemen missions. In August 2008, OMEP received its second program funding of
$11.8 million for FY 2008.

Notwithstanding the lack of an approved strategy, OMEP has focused on two areas:
(1) the provision of technical services to other missions, particularly smaller missions
such as Lebanon and Yemen, as needed, and (2) the oversight of multicountry
programming in the Middle East and North Africa region. In regard to technical
assistance services, OMEP does not track resources devoted to each area. However,
the OMEP director estimated that the technical staff devoted approximately 75 percent
of their time to providing technical services. An August 2007 review by USAID’s ANE
Bureau also concluded that the staff spends most of their time providing technical and
program support to other missions in the region. In regard to multicountry programming,
OMEP has focused on three areas: counterextremism, anticorruption, and water supply
and sanitation.

For counterextremism efforts, OMEP’s activities focused on youth by implementing
programs that include good education, positive role models, practical job skills, and
opportunities for jobs and leadership roles. For anticorruption efforts, OMEP’s activities
focused on transnational issues such as money laundering, as well as multilateral
programs to support transparency in civic society. For water supply and sanitation
efforts, OMEP’s activities focused on water scarcity and security in the region. Water is
a source of conflict owing to declining supply and increasing consumption, and water
sharing is a transnational issue on which few regional institutions are working.

The audit covered nine OMEP activities active as of August 24, 2008, and covered the
2-year period from October 1, 2006, through September 30, 2008.                As of
September 30, 2008, total estimated costs for OMEP activities were $25.1 million. Of
the $25.1 million, OMEP had obligated $15.1 million.

AUDIT OBJECTIVE
As part of the Office of Inspector General’s FY 2008 audit plan, the Regional Inspector
General/Cairo performed this audit to answer the following question:

•   Has USAID’s Office of Middle East Programs achieved its intended results and what
    has been the impact of the programs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        4
AUDIT FINDINGS
USAID’s Office of Middle East Programs (OMEP) achieved its intended results to
provide technical assistance support to seven missions in the Middle East and North
Africa. In regard to implementing nine regional program activities, OMEP has not
achieved its 2008 intended results, but it has made some progress implementing nine
regional activities. The impact of programs funded by OMEP has been limited for
several reasons.

•   The funding levels of OMEP’s programs are modest in comparison to the scale of the
    region covered, such as fiscal year (FY) 2008 U.S. economic assistance to Egypt of
    approximately $400 million. As of September 30, 2008, total lifetime estimated costs
    for OMEP regional activities were $25.1 million.
•   OMEP has programmed this funding for activities in seven countries.
•   OMEP programs cut across three areas: counterextremism, anticorruption, and
    water supply and sanitation.
•   OMEP’s programs are relatively new, as it has completed only its second year of
    development assistance.
•   OMEP’s mandate included the pioneering of new nontraditional programs.

OMEP has achieved success in providing technical support to small missions in the
Middle East. According to mission directors and deputy directors in the Middle East,
OMEP’s technical assistance was viewed as responsive, timely, adding value, and
technically strong. OMEP staff were providing either technical assistance support or
surge capacity to smaller missions when the missions experienced staff shortages.
From FYs 2007 through 2008, OMEP made 41 site visits to six missions (Iraq, Jordan,
Lebanon, Morocco, West Bank/Gaza, and Yemen) providing technical assistance and
surge capacity. OMEP technical assistance provided major contributions to missions,
such as designing and managing USAID/West Bank/Gaza’s public and private
partnerships with Palestinians, and helped USAID/Yemen draft its strategic strategy. In
addition, an OMEP staff member has served extended periods as acting mission director
in both Morocco and Lebanon.

Other reviewers have reached similar assessments. For example, an August 2007
review by USAID’s Asia and Near East (ANE) Bureau 4 determined that “OMEP’s staff
has provided extensive technical and program support to the smaller missions in the
Middle East. This support has been invaluable to these missions.” In addition, the
review report stated “the client missions underscored the importance of this relationship
with OMEP for technical and program support and are impressed with OMEP staff’s
quality and the overall level of responsiveness.” One of the report’s recommendations
was that OMEP should continue to provide program and technical support. In October
2007, the director of the ANE Bureau affirmed this position by providing guidance that
OMEP continue to increase its technical officer capacity.

In regard to implementing nine regional program activities, OMEP has not achieved its
intended results. For 16 indicators tested from the agreements of nine activities, 7

4
 In March 2008, USAID divided the ANE Bureau into two separate bureaus: the Middle East
Bureau and the Asia Bureau.


                                                                                       5
indicators (44 percent) achieved intended results, as seen in table 1. For the remaining
nine indicators, intended results were not achieved, partly because OMEP did not
develop a performance management plan to measure progress toward meeting intended
objectives with indicators that closely track the performance and results they are
intended to measure. In addition, for five of these nine indicators, OMEP did not have
direct oversight because other USAID missions and bureaus held the position of
cognizant technical officer. Furthermore, the activities under one indicator were
hindered by restrictions on anticorruption assistance to certain countries that prevented
regional training.

  Table 1. OMEP Achievement of Results for Performance in Fiscal Years 2007 and 2008

  Selected Indicators by Program Areas         Target Achieved     Target Not Achieved
 Counterextremism                                     5                     3
 Anticorruption                                       0                     2
 Water Security and Sanitation                        2                     4
                                   Total              7                     9

Under the counterextremism program area, OMEP achieved or exceeded targets for five
indicators and did not achieve targets for three indicators. (See appendix III.) For
example, OMEP’s implementor for the youth development activity “Siraj” provided
opportunities for 3,554 young people to put leadership into practice, exceeding the target
of 3,100.




     Youth leaders at Save the Children’s Siraj activity discussing youth community
              development. Photo taken by OIG auditor in October 2008.




                                                                                         6
OMEP’s youth development and leadership activity “Siraj” exceeded performance
expectations. Impacts included workshops initiated and organized independently by
trained young leaders to work with their peers to implement small-scale community
initiatives. In addition, OMEP’s Peace Scholarship activity achieved its target by sending
participants to seven out of eight countries for continuing education. In September 2008,
this activity sent its first group of 22 participants to complete 1 year of undergraduate
study at U.S. institutions. However, OMEP did not achieve the target of sending 30
participants.

In another example, for a youth media television drama currently under production,
OMEP invested in the research focused on youth issues, attitudes, and sources of
information. The television drama explored topics and issues important to the region’s
youth as well as local, regional, and international issues. OMEP’s implementing partner
surveyed 3,497 Arab youth, aged 15 to 25, in seven Middle East and North African
countries. It generally reached the target of 3,850 youth surveyed. On the other hand,
for the second phase of the activity, the implementer did not achieve the target of
producing 20 television drama shows teaching youth tolerance and values. The activity
did not begin filming in FY 2008, but plans to complete filming and production of all 20
shows in FY 2009.

Under the anticorruption program area, OMEP did not achieve its target to complete
assessments of the National Integrity System in four Middle East countries. 5
Nonetheless, the implementer (Transparency International) had substantially completed
research for the National Integrity System in Lebanon and West Bank/Gaza, and
research was under way in Egypt and Morocco. Furthermore, the activity achieved
progress in addressing cross-border money laundering when 33 government officials
from 12 countries learned techniques to combat bulk cash smuggling. However, OMEP
did not achieve its target of 105 government officials trained.

Nonetheless, OMEP has achieved some impact in this program area. OMEP is helping
government officials throughout the Middle East region to detect and prevent corruption
by providing technical training to increase their knowledge and skills concerning money
laundering. This interagency effort involves the U.S. Departments of Treasury and
Homeland Security. In addition, to strengthen civil society in combating corruption,
OMEP’s activity combined research, advocacy, and tools for monitoring and reporting on
anticorruption in the region. The activity included implementer staff in Egypt, Lebanon,
Morocco, and West Bank/Gaza. Although not measured as a performance indicator,
Transparency International trained its staff in the four participating countries to use the
National Integrity System.

Under the water security and sanitation program area, OMEP achieved targets for two
indicators and did not achieve targets for four indicators. For the indicator to promote
future water leaders, including training and networking activities, OMEP exceeded its
target of 25 midlevel water professionals by 1. On the other hand, OMEP fell short of its
target of three working groups engaged in improving operational and financial
performance of water and sanitation utilities in the Middle East. The implementing

5
  Transparency International’s National Integrity System country studies are qualitative reports
that provide a detailed and nuanced assessment of anticorruption systems at country level. Such
studies provide benchmarks for measuring developments in the country and serve as a basis for
comparison among countries.


                                                                                              7
partner instead reported one. The water activities under these six indicators were
monitored by a cognizant technical officer from the Middle East Bureau.

Two factors could improve OMEP’s monitoring of regional activities and more effectively
measure progress of its programs.

•     First, OMEP has been operating without a performance management plan. A
      coherent group of performance management plan indicators, both strategically
      defined and approved by management, would help OMEP to measure and monitor
      program achievements and resulting impacts.
•     Second, OMEP’s performance indicators in FY 2008 operational plan did not
      effectively measure performance. The audit identified that 15 of 19 performance
      indicators did not meet USAID’s criteria to closely track the results they are intended
      to measure.


A Performance Management Plan
Needs to Be Developed
    Summary: Automated Directives System regulation requires the operating unit, when
    presenting a planned new strategic objective, to include a preliminary performance
    management plan that proposes performance indicators for the strategic objective
    result. However, OMEP has been operating regional activities without a performance
    management plan. OMEP recognized this significant deficiency by reporting in its FYs
    2007 and 2008 Federal Managers’ Financial Integrity Act submissions that it lacked
    approved strategic objectives and a performance management plan. According to the
    OMEP director, OMEP did not develop a preliminary performance management plan
    because the performance management plan process and developing performance
    indicators were overshadowed by implementing a new strategic statement while
    carrying out regional development activities. Without a performance management
    plan in place, results may not be efficiently tracked, assessed, and reported to USAID.
    Furthermore, OMEP may be unable to monitor the quality and timeliness of key
    results to ensure that intended targets were achieved.

USAID’s Automated Directives System (ADS) 201.3.7.6 6 states that in presenting a
planned new strategic objective, the operating unit must include a preliminary
performance management plan that proposes performance indicators for the strategic
objective result, with baseline data and targets. If possible, performance indicators for
the intermediate results should also be included. However, OMEP has been operating
regional activities without a performance management plan.

In spite of the absence of a performance management plan, OMEP officials said that
performance monitoring was ongoing. For example, the OMEP director said that various
monitoring methods and tools were employed, such as regular portfolio implementation
reviews between USAID/Egypt and OMEP, weekly and monthly implementing partners
meetings with the OMEP cognizant technical officers, quarterly performance reports
submitted to OMEP by the implementing partners, monthly invoice examinations, and
daily phone conversations and e-mails.

6
    ADS 201.3.7.6 citation has been changed in the revised ADS to 201.3.8.6.


                                                                                           8
OMEP recognized this significant deficiency by reporting in OMEP’s FYs 2007 and 2008
Federal Managers’ Financial Integrity Act 7 submissions that they lacked approved
strategic objectives and a performance management plan. According to the OMEP
director, OMEP did not develop a preliminary performance management plan because
the performance management plan process and developing performance indicators
were overshadowed by implementing a new strategic statement while carrying out
regional development activities.

USAID’s TIPS No. 7, “Preparing a Performance Management Plan,” states that a
performance management plan is a critical tool for planning, managing, and
documenting data collection. It contributes to the effectiveness of the monitoring system
by assuring that comparable data will be collected on a regular and timely basis. These
are essential to the operation of a credible and useful performance-based management
approach. Without a performance management plan in place, results may not be
efficiently tracked, assessed, and reported to USAID. Furthermore, OMEP may be
unable to monitor the quality and timeliness of key results to ensure intended targets
were achieved. Consequently, the audit team makes the following recommendation.

          Recommendation No. 1:        We recommend that USAID/Egypt, in
          collaboration with the Office of Middle East Programs, develop a
          performance management plan as required by USAID Automated
          Directives System 201.


Operational Plan Performance
Indicators Need to Be Revised
    Summary: Automated Directives System regulation requires that operating units
    establish systems to measure progress including baselines and targets that can
    optimistically but realistically be achieved. Furthermore, performance indicators
    should be direct and closely track the results they are intended to measure. However,
    15 of 19 performance indicators in the FY 2008 operational report did not meet these
    criteria and were not effective measures of performance. These shortcomings
    occurred because OMEP did not design performance indicators in its FY 2008
    operational plan that closely tracked results. As a result of using performance
    indicators that were ineffective measures of performance, OMEP has not been able to
    measure program progress and achievements.

USAID’s Automated Directives System (ADS) 203.3.2 8 states that operating units are
responsible for establishing systems to measure progress toward meeting intended
objectives. Operating units should include baselines and set performance targets that
can optimistically but realistically be achieved within the stated timeframe and with the

7
  To support the Federal Managers’ Financial Integrity Act annual certification, each operating unit
must provide an annual certification on the overall adequacy and effectiveness of internal controls
to the next management level. The certification includes a description of control deficiencies that
could adversely affect the unit’s ability to meet its internal control objectives. These are categorized
as significant deficiencies and must be internally tracked and monitored by activity managers.
8
  ADS 203.3.2 citation has been changed in the revised ADS to 203.3.3 and 203.3.4.5.


                                                                                                      9
available resources. Furthermore, ADS 203.3.4.2 9 states that performance indicators
should be direct and closely track the results they are intended to measure.

OMEP reported results for 19 performance indicators 10 to USAID in the FY 2008
operational plan. However, 15 of 19 performance indicators did not meet the ADS
criteria and, consequently, were not effective measures of performance. 11

(1) Three performance indicators did not have targets or expected results. For example,
    one indicator was the percentage of the target population who watch OMEP-funded
    television drama shows regularly. However, the target was zero, since the television
    programs were not being shown until FY 2009. In this case, OMEP could have
    established an alternate indicator with performance targets such as number of
    television programs written and edited rather than an indicator without targets or
    expected results.

(2) Seven performance indicators were outside the manageable interests of OMEP
    activities. For example, within the activity for producing television drama shows, one
    indicator was the number of public information campaigns completed by U.S.
    Government programs. However, the implementing partner was neither measuring
    this information nor participating in this activity.

(3) Five performance indicators did not sufficiently measure the results of the program.
    Specifically, OMEP reported that the quantitative indicators 12 under the water supply
    and sanitation program area did not capture the complexity of the activity.

Further, none of the operational plan’s performance indicators measured leveraging from
private partners. For the nine activities reviewed, four included a component of
leveraging other resources from private investments. However, none of the 19
performance indicators in the FY 2008 operational plan attempted to measure this
aspect of program implementation.

The shortcomings in the performance indicators for the operational plan occurred
because OMEP did not design performance indicators in its FY 2008 operational plan
that closely tracked results. In addition, OMEP did not employ a monitoring and
evaluation specialist. The director said that the nature, type, and number of indicators
OMEP previously reported did not justify a full-time monitoring and evaluation specialist.
However, owing to increases in program activities and funding levels, the office hired a
monitoring and evaluation specialist in March 2009. As a consequence, the audit team
is not making a recommendation to employ a monitoring specialist.




9
  ADS 203.4.2 citation has been changed in the revised ADS to 203.3.4.2d.
10
   Three indicators in the FY 2008 operational plan were also included in the 16 indicators from
the nine agreements, monitoring plans, and work plans.
11
   As a consequence, the audit did not test these 15 indicators.
12
    The five performance indicators under the water supply and sanitation program were
(1) number of local organizations provided with technical assistance for strategic information
activities, (2) number of baseline or feasibility studies, (3) number of monitoring plans, (4) number
of sector assessments, and (5) number of special studies.


                                                                                                  10
As a result of using performance indicators that were ineffective measures of
performance, OMEP has not been fully able to measure program progress and
achievements.

During the audit, OMEP officials acknowledged that some of the FY 2008 operational
plan’s indicators were not effective measures of performance. They took action and
revised some performance indicators in its FY 2008 performance summary submitted in
November 2008 to the Middle East Bureau for approval. OMEP officials noted that, in
addition to developing a performance management plan and employing a monitoring and
evaluation specialist, they plan additional improvements to the performance indicators
such as setting performance targets and developing indicators that can be directly
attributed to OMEP activities in its FY 2009 operational plan. Consequently, the audit
team makes the following recommendation.

       Recommendation No. 2:          We recommend that USAID/Egypt, in
       collaboration with the Office of Middle East Programs, develop and/or
       revise performance indicators to ensure that they effectively measure the
       performance of the Office of Middle East Programs’ activities as required
       by USAID Automated Directives System 203.




                                                                                   11
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Egypt, in collaboration with USAID’s Office of
Middle East Programs, agreed with the two recommendations. An evaluation of the
management comments for each recommendation is shown below.

With regard to recommendation no. 1, Automated Directives System 595.3.1.2c requires
a target date for completion of all actions. The Office of Middle East Programs agreed
with the recommendation and said that it would establish a performance management
plan within 90 days of when a strategy was approved by the Middle East Bureau.
Accordingly, after the Office of Middle East Programs can determine more precisely its
target date for completion of all actions, the office can request our acknowledgement of
a management decision.

With regard to recommendation no. 2, the Office of Middle East Programs revised
performance indicators for its FY 2008 performance report in November 2008. Since the
revised performance indicators cover the program through FY 2010, the corrective
action addresses the recommendation. Based on action taken, the audit team considers
that both a management decision and final action have been taken for the
recommendation.

Management comments in their entirety are included in appendix II.




                                                                                     12
                                                                                  APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this performance audit in accordance
with generally accepted Government auditing standards to determine whether USAID’s
Office of Middle East Programs (OMEP) achieved its intended results and what the
impact of the programs have been. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Audit work was conducted at USAID/Egypt from August 24 through
December 22, 2008. The audit covered the 2-year period from October 1, 2006, through
September 30, 2008.

In planning and performing the audit, we assessed management controls related to
management review, and tested the accuracy and reliability of the selected performance
indicators. Specifically, we obtained an understanding of and evaluated (1) the fiscal
years (FYs) 2007 and 2008 operational plans; (2) the Federal Managers’ Financial
Integrity Act of 1982; (2) implementing partner agreements, monitoring plans, and work
plans; (3) performance indicators; (4) actual results; and (5) financial reports. We also
interviewed key USAID/Egypt and OMEP personnel and implementing partners.

As of September 30, 2008, OMEP’s regional program had 13 agreements with total
estimated costs of $25.1 million, against which $15.1 million had been obligated. OMEP
added 4 of the 13 agreements after August 24, 2008, when audit work started. We
focused on the nine agreements active as of August 24, 2008, with $21.7 million, or 86
percent of total estimated costs. For one agreement with the Department of Treasury
related to anti-money-laundering activities, we did not test the accuracy and reliability of
the one performance indicator. The implementing partners for the nine agreements
were Save the Children Federation, Inc.; The Synergos Institute, Inc.; World Learning;
Alkarma Edutainment; Transparency International; Endeavor Films; Bibliotheca
Alexandria; Development Alternatives, Inc.; and the U.S. Department of Treasury. There
were no prior audits relevant to this review.

Methodology
To assess the achievement of intended results, we selected all 10 performance
indicators 13 for eight agreements 14 and selected 6 of 18 performance indicators that
were significant from one agreement’s performance management plan.

For the 16 performance indicators selected, we validated performance data as of
September 30, 2008, by comparing reported results 15 to supporting documentation.

13
   Three of the 10 indicators were also in the FY 2008 operational plan.
14
   The results for two agreements’ performance indicators were not due until FY 2009. Therefore,
we did not test these indicators.
15
   The audit reviewed the achievement of cumulative results for 2 years if the performance period
included both FYs 2007 and 2008.


                                                                                              13
                                                                          APPENDIX I


Based on discussions with OMEP staff and our judgment, we did not consider any
individual performance indicator to be more important than others. If the mission met
80 percent of the target for an indicator, we concluded that the mission achieved the
target for that indicator. We planned to review the 19 indicators and targets OMEP
reported to USAID in its FY 2008 operational report. However, 15 of the 19 indicators
from the operational report could not be used, as discussed in the second finding area
beginning on page 9.

Furthermore, we reviewed applicable laws and regulations, as well as USAID policies
and procedures pertaining to OMEP’s regional programs, including the Federal
Managers Financial Integrity Act of 1982 and Automated Directives System chapters
200, 201, 202, and 203. Also, we analyzed relevant documents at USAID/Egypt and
OMEP.       These documents included OMEP’s draft strategic objective, the nine
agreements, work and operational plans, progress reports, other monitoring reports, and
financial records. We conducted site visits of OMEP’s regional activities at Save the
Children Federation, Inc.’s regional office in Amman, Jordan; Alkarma Edutainment in
Cairo, Egypt; Development Alternatives, Inc.’s regional office in Cairo, Egypt; World
Learning in Maadi, Egypt; and Bibliotheca Alexandria in Alexandria, Egypt.




                                                                                    14
                                                                               APPENDIX II



MANAGEMENT COMMENTS

                                                                      March 23, 2009


MEMORANDUM


TO:            Regional Inspector General, Cairo, Lloyd J. Miller

THRU:          USAID/Egypt Mission Director, Hilda Arellano /s/

FROM:          Office of Middle East Programs Director, David Barth /s/

SUBJECT:       Audit of USAID’s Office of Middle East Programs (OMEP)

We appreciate the opportunity to respond to your audit report No. 6-263-09-00X-P issued
February 22, 2009. As a new operating unit, established in June 2005, OMEP is grateful
to have benefitted from an objective evaluation of what it has accomplished during its
initial years of operation.

As was stated in the audit report, OMEP has two primary functions: 1) providing
technical services to the seven USAID Missions in the Middle East and North Africa; and
2) managing regional activities funded from the OMEP program budget. We are
extremely pleased to learn that the audit concluded that OMEP was highly successful in
carrying out its support role and that “OMEP achieved its intended results to provide
support to seven missions in the Middle East and North Africa”.

The audit found that OMEP had not done as well in carrying out its second function,
implementing regional programs, failing to meet some of its targets for FY 2008. We
believe that this finding is misleading without greater context. The finding is not
surprising given that all of the activities are relatively new. None of the activities audited
were more than two years old, and four of them had been in existence for less than one
year. Seldom would such activities show substantial development results. This is
particularly true of OMEP’s multilateral activities, which are highly-complex and do not
follow standard models. That said, OMEP has addressed the challenges highlighted in
the audit that occurred during the start-up phase and all of the activities referred to in the
audit are now on track to meet their performance targets.

OMEP takes performance management extremely seriously as demonstrated by its
creation of a FSN-11 Monitoring and Evaluation Specialist position. An individual with



                                                                                           15
                                                                            APPENDIX II


extensive experience in monitoring and evaluation of USAID activities was selected for
the position in October 2008 he began working from OMEP March 1, 2009. The M&E
Specialist is responsible for establishing and maintaining the Mission’s performance
management plan (PMP) in accordance with agency requirements and best practices. He
will also provide technical assistance to OMEP partners so that they can accurately
measure and report on their performance.

Recommendation No. 1: We recommend that USAID/Egypt, in collaboration with the
Office of Middle East Programs, develop a performance management plan as required by
USAID Automated Directives System 201.

OMEP agrees with the recommendation that it should establish a performance
management plan once an approved strategy is in place. In the absence of a formal PMP,
OMEP currently relies on several of the main elements of a PMP, such as performance
indicators and annual targets for each of the program elements in which we are working.
Performance targets and results are entered in the State Departments Foreign Assistance
and Coordination Tracking System, and are updated each year when preparing the annual
performance report. In addition, each of OMEP’s activities has its own PMP. The
absence of a complete PMP with indicators and targets for assistance objectives and
intermediate results is due to the fact that OMEP does not currently have an approved
strategy. In response to feedback from Washington, OMEP recently revised its strategy
document, which now includes results frameworks and illustrative indicators. A full
PMP will be completed with ninety days of the approval of the strategy by the Middle
East Bureau.

Recommendation No. 2: We recommend that USAID/Egypt, in collaboration with the
Office of Middle East Programs, develop and/or revise performance indicators to ensure
that they effectively measure the performance of the Office of Middle East Programs’
activities as required by USAID Automated Directives System 203.

OMEP agrees with the recommendation that performance indicators should be developed
or revised to more effectively measure performance. In fact, this action was completed in
November 2008, in conjunction with the submission of the FY 2008 annual performance
report (attached as annex 1).

The audit was conducted between August and December 2008, covering the period
ending September 30, 2008. The audit noted that some of the performance indicators in
the fiscal year 2008 operational plan did not closely track results. That is because OMEP
primarily utilized standard indicators issued by the Office of Foreign Assistance for each
program element. Many of these indicators did not effectively measures the results that
the activities were intended to achieve. When preparing the FY 2008 performance report,
OMEP took the opportunity to discontinue the use of those standard indicators that were
not relevant, and adopted more appropriate customized indicators. Specifically the
OMEP program element indicators were adjusted in the FY 2008 performance report,
eliminating eleven, adding eight and maintaining six. Targets for FY 2009 and FY 2010
were established for each of the indicators that were added or maintained. OMEP



                                                                                       16
                                                                            APPENDIX II


believes that it is now able to accurately report on the results it is accomplishing under
each program element.

In closing, I would like to thank the RIG office for the extremely professional and
collegial manner in which this audit was conducted. The nature of the OMEP program
did not easily lend itself to following the standard protocol for a performance audit, due
to its regional coverage, the newness of the activities, and the multiple functions of the
operating unit. The RIG was extremely flexible and willing to listen to our concerns,
adjusting its methodology and analysis to reflect OMEP’s unique circumstances. The
ultimate result is a useful report that will allow us to improve our performance.




                                                                                       17
                                                                           APPENDIX III


                       Performance Indicators Reviewed
            Planned and Actual Results for OMEP Activities as of September 30, 2008
                                            Planned                         Planned Target
             Indicator Reviewed              Target Actual Achieved          Data Source
Counterextremism
1. Measuring reform policies and
                                                  1         0      No
activities                                                                Agreement
2. Number of TV shows teaching youth
                                                 20         0      No
tolerance and values produced                                             Agreement
3. Number of youth surveyed to assess
                                              3,850 3,497         Yes
main concerns and global issues                                           Agreement
4. Number of youth actively involved in
                                              3,100 3,554         Yes
Siraj                                                                     Agreement
5. Number of youth workers actively                                       Agreement and
                                                450      781      Yes
involved in Siraj                                                         Operational Report
6. Number of institutions working with
                                                100      146      Yes
youth.                                                                    Agreement
7. Number of students posted in Peace                                     Agreement and
                                                 30        22      No
Scholarships program                                                      Operational Report
8. Number of countries reached for
                                                  8         7     Yes
recruitment of Peace Scholarships                                         Agreement
Anticorruption
9. Number of completed assessments on
Transparency International’s National             4         0      No
Integrity System measuring anticorruption                                 Agreement
10. Number of staff government officials
receiving U.S. Government–supported             105        33      No     Agreement And
anticorruption training                                                   Operational Report
Water Supply and Sanitation
11. Number of working groups in
operation testing collaborative practices                                 Contractor
                                                  2         1      No
to transboundary river basin                                              Performance
management                                                                Management Plan
12. Cumulative number of countries
analyzing and implementing approaches                                     Contractor
                                                 10         0      No
for managing the sector at a high level of                                Performance
operation and/or conceptualization                                        Management Plan
13. Number of institutions and                                            Contractor
organizations participating in                    5         4     Yes     Performance
management of irrigation waters                                           Management Plan
14. Number of working groups engaged
in identification and assessment of
options to improve operational and
                                                  3         1      No
financial performance and service                                         Contractor
delivery based on information shared at                                   Performance
workshops and technical assistance                                        Management Plan




                                                                                       18
                                                                         APPENDIX III


          Planned and Actual Results for OMEP Activities as of September 30, 2008
                                          Planned                         Planned Target
            Indicator Reviewed              Target Actual Achieved         Data Source
15. Number of future leaders identified
and their technical and management                                      Contractor
                                                25       26      Yes
capacities strengthened through training                                Performance
and networking                                                          Management Plan
                                                                        Contractor
16. Level of co-investment (actual or in   $50,000       $0      No     Performance
kind) mobilized                                                         Management Plan
                                                               Yes: 7
        Total Indicators Achieved                               No: 9




                                                                                    19
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
              www.usaid.gov
